No 20-7084

In the
SUPREME COURT OF THE UNITED STATES

Mindy Hill, Petitioner

Google, LLC et al, Respondent(s)

PROOF OF SERVICE
I, Mindy Hill, do swear or declare that on this date May 1
2021, as required by
Supreme Court Rule 29, I have served the enclosed PETITION FOR REHEARING
on each party to the above proceedings or that party's counsel, and on every other
person required to be served, by depositing to each of them and with first-class
postage paid.

Courtney Miller
C/O Roy L. Austin, Jr.
1919 M. Street, NW Suite 800
Washington, DC 20036
(314) 497-2401

&cif-a-ed Altif zz/

